Federal Financial
Institutions Examination
Council
Financial Statements as of and for the Years
Ended December 31, 2011 and 2010, and
Independent Auditors’ Report
FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

TABLE OF CONTENTS


                                                                                       Page

INDEPENDENT AUDITORS’ REPORT                                                              1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
 DECEMBER 31, 2011 AND 2010:

 Balance Sheets                                                                           2

 Statements of Revenues and Expenses and Changes in Cumulative Results of Operations      3

 Statements of Cash Flows                                                                 4

 Notes to Financial Statements                                                           5–11

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND ON
  INTERNAL CONTROL OVER FINANCIAL REPORTING BASED ON AN
  AUDIT OF FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE WITH
  GOVERNMENT AUDITING STANDARDS                                                          12–13
                                                                                 Deloitte & Touche LLP
                                                                                 Suite 800
                                                                                 1750 Tysons Boulevard
                                                                                 McLean, VA 22102-4219
                                                                                 USA
                                                                                 Tel: +1 703 251 1000
                                                                                 Fax: +1 703 251 3400
                                                                                 www.deloitte.com




INDEPENDENT AUDITORS’ REPORT

To the Federal Financial Institutions Examination Council:
Washington, D.C.

We have audited the accompanying balance sheets of the Federal Financial Institutions
Examination Council (the “Council”) as of December 31, 2011 and 2010, and the related
statements of revenues and expenses and changes in cumulative results of operations, and cash
flows for the years then ended. These financial statements are the responsibility of the Council’s
management. Our responsibility is to express an opinion on these financial statements based on
our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the
effectiveness of the Council’s internal control over financial reporting. Accordingly, we express
no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial
position of the Federal Financial Institutions Examination Council as of December 31, 2011 and
2010, and the results of its operations and its cash flows for the years then ended in conformity
with accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated March
5, 2012, on our consideration of the Council’s internal control over financial reporting and our
tests of its compliance with certain provisions of laws, regulations, contracts, and grant
agreements and other matters. The purpose of that report is to describe the scope of our testing
of internal control over financial reporting and compliance and the results of that testing, and not
to provide an opinion on the internal control over financial reporting or on compliance. That
report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be considered in assessing the results of our audit.




March 5, 2012



                                                                                    Member of
                                                                                    Deloitte Touche Tohmatsu
FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

BALANCE SHEETS
AS OF DECEMBER 31, 2011 AND 2010


                                                                     2011              2010
ASSETS
CURRENT ASSETS:
 Cash                                                         $      543,453     $      746,815
 Accounts receivable from member organizations                       785,708          1,276,250
 Other accounts receivable — net                                      91,520            104,441

       Total current assets                                        1,420,681          2,127,506

NONCURRENT ASSETS:
 Furniture and equipment — at cost                                     20,999         20,999
 Furniture and equipment leased — at cost                             198,485        198,485
 Central Data Repository software — at cost                        20,120,566     19,371,661
 Home Mortgage Disclosure Act software — at cost                    2,783,868      2,783,868
 Less accumulated depreciation                                    (15,574,489)   (12,704,895)

       Net capital assets                                          7,549,429          9,670,118

TOTAL ASSETS                                                  $ 8,970,110        $ 11,797,624

LIABILITIES AND CUMULATIVE RESULTS OF
 OPERATIONS
CURRENT LIABILITIES:
 Accounts payable and accrued liabilities payable to member
  organizations                                               $      805,796     $      839,152
 Other accounts payable and accrued liabilities                      285,947            988,059
 Accrued annual leave                                                 22,971             27,746
 Capital lease payable                                                39,376             37,828
 Deferred revenue                                                  3,125,930          2,746,667

       Total current liabilities                                   4,280,020          4,639,452

LONG-TERM LIABILITIES:
 Capital lease payable                                               102,825            142,202
 Deferred revenue                                                  4,285,874          6,746,128
 Deferred rent                                                         9,996              6,605

       Total long-term liabilities                                 4,398,695          6,894,935

       Total liabilities                                           8,678,715         11,534,387
CUMULATIVE RESULTS OF OPERATIONS                                     291,395           263,237

TOTAL LIABILITIES AND CUMULATIVE
 RESULTS OF OPERATIONS                                        $ 8,970,110        $ 11,797,624

See notes to financial statements.
                                                   2
FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

STATEMENTS OF REVENUES AND EXPENSES AND
CHANGES IN CUMULATIVE RESULTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2011 AND 2010


                                                        2011             2010

REVENUES:
 Assessments on member organizations              $      687,107   $      632,344
 Central Data Repository                               4,936,912        4,452,286
 Home Mortgage Disclosure Act                          3,727,927        3,433,075
 Tuition                                               3,246,549        2,662,193
 Community Reinvestment Act                              946,928        1,024,844
 Uniform Bank Performance Report                         351,646          464,633

       Total revenues                                 13,897,069       12,669,375

EXPENSES:
 Data processing                                       4,164,479        4,529,275
 Professional fees                                     4,121,224        3,635,374
 Salaries and related benefits                         1,781,660        1,739,031
 Depreciation                                          2,869,594        1,877,343
 Rental of office space                                  264,989          264,989
 Administration fees                                     281,000          245,000
 Travel                                                  242,659          170,404
 Other seminar expenses                                   33,526           30,297
 Rental and maintenance of office equipment               27,544           48,313
 Office and other supplies                                56,237           25,033
 Printing                                                 18,389           18,380
 Postage                                                   2,564            1,660
 Miscellaneous                                             5,046            7,021

       Total expenses                                 13,868,911       12,592,120

RESULTS OF OPERATIONS                                    28,158           77,255

CUMULATIVE RESULTS OF OPERATIONS — Beginning of
 year                                                   263,237          185,982

CUMULATIVE RESULTS OF OPERATIONS — End of year    $     291,395    $     263,237


See notes to financial statements.




                                              3
FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2011 AND 2010


                                                                       2011              2010

CASH FLOWS FROM OPERATING ACTIVITIES:
 Results of operations                                           $      28,158     $      77,255
 Adjustments to reconcile results of operations to net cash
  provided by operating activities:
  Depreciation                                                       2,869,594         1,877,343
  (Increase) decrease in assets:
    Accounts receivable from member organizations                      490,542          (275,247)
    Other accounts receivable                                           12,921           (13,812)
  Increase (decrease) in liabilities:
    Accounts payable and accrued liabilities payable to member
     organizations                                                      (33,356)         (77,379)
    Other accounts payable and accrued liabilities                     (284,515)        (162,453)
    Accrued annual leave                                                 (4,775)           7,629
    Deferred revenue (current and non-current)                       (2,080,991)        (276,603)
    Deferred rent                                                         3,391            6,605

       Net cash provided by operating activities                     1,000,969         1,163,338

CASH FLOWS FROM INVESTING ACTIVITIES:
 Capital expenditures                                                (1,169,016)       (1,427,853)

CASH FLOWS FROM FINANCING ACTIVITIES:
Capital lease payments                                                 (35,315)          (11,370)

NET INCREASE (DECREASE) IN CASH                                       (203,362)         (275,885)

CASH BALANCE — Beginning of year                                       746,815         1,022,700

CASH BALANCE — End of year                                       $     543,453     $     746,815


See notes to financial statements.




                                                    4
FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2011 AND 2010


1.   ORGANIZATION AND PURPOSE

     The Federal Financial Institutions Examination Council (the Council) was established under
     Title X of the Financial Institutions Regulatory and Interest Rate Control Act of 1978. The
     purpose of the Council is to prescribe uniform principles and standards for the federal
     examination of financial institutions and to make recommendations to promote uniformity in
     the supervision of these financial institutions. The five agencies which were represented on the
     Council during 2011, referred to hereinafter as member organizations, are as follows:

        ·   Board of Governors of the Federal Reserve System (FRB)
        ·   Consumer Financial Protection Bureau (CFPB)
        ·   Federal Deposit Insurance Corporation (FDIC)
        ·   National Credit Union Administration (NCUA)
        ·   Office of the Comptroller of the Currency (OCC)

     In accordance with the Financial Services Regulatory Relief Act of 2006, a representative state
     regulator was added as a full voting member of the Council in October 2006.

     The Council was given additional statutory responsibilities by Section 340 of the Housing and
     Community Development Act of 1980, Public Law 96-399. Among these responsibilities are
     the implementation of a system to facilitate public access to data that depository institutions
     must disclose under the Home Mortgage Disclosure Act of 1975 (HMDA) and the aggregation
     of annual HMDA data, by census tract, for each metropolitan statistical area.

     On July 21, 2010, the Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010
     (Dodd-Frank Act) was signed into law. This legislation substitutes the director of the
     Consumer Financial Protection Bureau for the director of the Office of Thrift Supervision
     (OTS) as a member of the Council effective July 21, 2011.

     The Council’s financial statements do not include financial data for the Council’s Appraisal
     Subcommittee (the Subcommittee). The Subcommittee was created pursuant to Public
     Law 101–73, Title XI of the Financial Institutions Reform, Recovery, and Enforcement Act of
     1989. Although it is a subcommittee of the Council, the Appraisal Subcommittee maintains
     separate financial records and administrative processes. The Council is not responsible for any
     debts incurred by the Subcommittee, nor are Subcommittee funds available for use by the
     Council.

2.   SIGNIFICANT ACCOUNTING POLICIES

     The Council prepares its financial statements in accordance with accounting principles
     generally accepted in the United States of America (GAAP).

                                                  5
Revenues — Assessments are made on member organizations to fund the Council’s operations
based on expected cash needs. Amounts over- or under- assessed due to differences between
actual and expected cash needs are presented in the “Cumulative Results of Operations” line
item during the year and then are used to offset or increase the next year’s assessment. Deficits
in “Cumulative Results of Operations” can be recouped in the following year’s assessments.

The Council provides seminars in the Washington, D.C. area and at locations throughout the
country for member organizations and other agencies. The Council also coordinates the
production and distribution of the Uniform Bank Performance Reports (UBPR) through the
FDIC. Tuition and UBPR revenue is adjusted at year-end to match expenses incurred as a
result of providing education classes and UBPR services. For differences between revenues and
expenses, member agencies are assessed an additional amount or credited a refund based on
each member’s proportional cost for the Examiner Education and UBPR budget. The Council
also recognizes revenue from member agencies for expenses incurred related to the Community
Reinvestment Act.

Capital Assets — Furniture and equipment is recorded at cost less accumulated depreciation.
Depreciation is calculated on a straight-line basis over the estimated useful lives of the assets,
which range from four to ten years. Upon the sale or other disposition of a depreciable asset, the
cost and related accumulated depreciation are removed and any gain or loss is recognized. The
Central Data Repository (CDR) and the HMDA rewrite, internally developed software projects,
are recorded at cost as required by the Internal Use Software Topic of Financial Accounting
Standards Board (FASB) Accounting Standards Codification.

Deferred Revenue — Deferred revenue includes cash collected and accounts receivable related
to the CDR and HMDA.

Deferred Rent — The lease for office and classroom space contains scheduled rent increases
over the term of the lease. As required by the Leases Topic of the FASB Accounting Standards
Codification, rent abatements and scheduled rent increases must be considered in determining
the annual rent expense to be recognized. The deferred rent represents the difference between
the actual lease payments and the rent expense recognized.

Estimates — The preparation of financial statements in conformity with GAAP requires
management to make estimates and assumptions that affect the reported amounts of assets and
liabilities and the disclosure of contingent assets and liabilities at the date of the financial
statements and the reported amounts of revenues and expenses during the reporting period.
Actual results could differ from those estimates.

Allowance for Doubtful Accounts — Accounts receivable for non-members are shown net of
the allowance for doubtful accounts. Accounts receivable considered uncollectible are charged
against the allowance account in the year they are deemed uncollectible. The allowance for
doubtful accounts is adjusted monthly, based upon a review of outstanding receivables.




                                             6
3.   TRANSACTIONS WITH MEMBER ORGANIZATIONS

                                                                          2011           2010

       Accounts receivable:
        Board of Governors of the Federal Reserve System              $ 132,539      $ 290,047
        Consumer Financial Protection Bureau                                  0              0
        Federal Deposit Insurance Corporation                           194,230        467,726
        National Credit Union Administration                             46,051         47,501
        Office of the Comptroller of the Currency                       412,888        416,572

                                                                      $ 785,708      $ 1,221,846

       Accounts payable and accrued liabilities:
        Board of Governors of the Federal Reserve System              $ 494,234      $ 579,792
        Consumer Financial Protection Bureau                                  0              0
        Federal Deposit Insurance Corporation                           175,940        126,265
        National Credit Union Administration                             27,080          7,624
        Office of the Comptroller of the Currency                       108,542        124,321

                                                                      $ 805,796      $ 838,002

       Operations:
        Council operating expenses reimbursed by members              $ 687,107      $ 632,344
        FRB-provided administrative support                           $ 281,000      $ 245,000
        FRB-provided data processing                                  $ 4,164,479    $ 4,529,275



     The Council does not directly employ personnel, but rather member organizations detail
     personnel to support Council operations. These personnel are paid through the payroll systems
     of member organizations. Salaries and fringe benefits, including retirement benefit plan
     contributions, are reimbursed to these organizations. The Council does not have any post-
     retirement or post-employment benefit liabilities since Council personnel are included in the
     plans of the member organizations. Due to organizational changes resulting from the Dodd-
     Frank Act, the OCC absorbed all financial related activity of the OTS on July 21, 2011. As of
     December 31, 2010, the OTS had accounts receivable of $54,404 and accounts payable and
     accrued liabilities of $1,150 that are not reflected in the table above. These amounts were
     settled by and with the OTS during 2011 and thus were no longer outstanding as of December
     31, 2011.

     Member organizations are not reimbursed for the costs of personnel who serve as Council
     members and on the various task forces and committees of the Council. The value of these
     contributed services is not included in the accompanying financial statements.




                                                  7
4.   CENTRAL DATA REPOSITORY SOFTWARE

     In 2003, the Council entered into an agreement with UNISYS to enhance the methods and
     systems used to collect, validate, process, and distribute Call Report information, and to store
     this information in CDR. The CDR was placed into service in October 2005. At that time, the
     Council began depreciating the CDR project on the straight-line basis over its estimated useful
     life of 63 months. In 2009, the Council reevaluated the useful life of CDR and decided to
     extend the estimated useful life by an additional 36 months based on enhanced functionality of
     the software. The Council records depreciation expenses and recognizes the same amount of
     revenue. The value of the CDR asset as of December 31, 2011 and 2010, includes the fully
     accrued and paid cost.
                                                                        2011            2010

     Capital asset CDR:
      Beginning balance                                           $ 19,371,661       $ 18,231,272
      Software placed in use during the year                           748,905          1,140,389

     Total asset                                                  $ 20,120,566       $ 19,371,661

     Accounts payable and accrued liabilities related to CDR:
      Payable to UNISYS for the CDR project                       $    216,012       $   865,630


     CDR Revenues —The Council is funding the project by billing the three participating Council
     member organizations (FRB, FDIC, and OCC). Funding for the years ended December 31, 2011
     and 2010, is as follows:

       Deferred Revenue                                                    2011               2010

       Beginning balance                                               $ 6,708,927       $ 7,424,718
       Additions                                                           748,906         1,140,389
       Less revenue recognized                                          (2,319,521)       (1,856,180)
       Ending balance                                                  $ 5,138,312       $ 6,708,927

       Current portion deferred revenue                                $ 2,569,156       $ 2,236,309
       Long-term deferred revenue                                        2,569,156         4,472,618
       Total Deferred Revenue                                          $ 5,138,312       $ 6,708,927


       Total CDR Revenue
       Deferred revenue recognized                                     $ 2,319,521       $ 1,856,180
       Hosting and maintenance revenue                                   2,617,391         2,596,106
       Total CDR Revenue                                               $ 4,936,912       $ 4,452,286

       Depreciation

       Depreciation for the CDR project                                $ 2,319,521       $ 1,856,180

       Average monthly depreciation                                    $   193,293       $   154,682

                                                     8
5.   HOME MORTGAGE DISCLOSURE ACT SOFTWARE
     The Council entered into an agreement with FRB to maintain and support the HMDA
     processing system. In 2007, the Council began a rewrite of the entire HMDA processing
     system, which went into service in 2011. The Council began depreciating the HMDA project
     on the straight-line basis over its estimated useful life of 60 months. The financial activity
     associated with the processing system for the years ended December 31, 2011 and 2010, is as
     follows:
                                                                              2011            2010

       Deferred Revenue

       Beginning balance                                                $ 2,783,868     $ 2,344,680
       Additions                                                                  0         439,188
       Less revenue recognized                                             (510,376)              0

       Ending balance                                                   $ 2,273,492     $ 2,783,868

       Current portion deferred revenue                                 $ 556,774       $ 510,358
       Long-term deferred revenue                                           1,716,718       2,273,510

       Total Deferred Revenue                                           $ 2,273,492     $ 2,783,868


       Total HMDA Revenue
        The Council recognized the following revenue from
         member organizations for the production and distribution
         of reports under the HMDA; includes the deferred revenue
         recognized in 2011:                                            $ 2,857,085     $ 2,537,870
        The Council recognized the following revenue from the
         Department of Housing and Urban Development’s
         participation in the HMDA project:                                  556,207         588,421
        The Council recognized the following revenue from the
         Mortgage Insurance Companies of America for performing
         HMDA-related work:                                                  314,635         306,784

       Total HMDA                                                       $ 3,727,927     $ 3,433,075

       Depreciation

       Depreciation for the HMDA Rewrite project                        $ 510,376       $            0

       Average monthly depreciation                                     $     46,398    $            0




                                                   9
6.   OPERATING LEASES
     The FRB, on behalf of the Council, entered into an operating lease at market value with the
     FDIC in January 2010 to secure office and classroom space.

       Years Ending
       December 31,                                                                      Amount

       2012                                                                           $ 264,900
       2013                                                                             268,292
       2014                                                                             271,772

       Total minimum lease payments                                                   $ 804,964



     Rental expenses under this operating lease were $264,989 and $264,989 as of December 31,
     2011 and 2010, respectively.
7.   CAPITAL LEASES
     In December 2009 and November 2010, the Council entered into capital leases for printing
     equipment. Furniture and equipment includes $198,485 for the capital leases. Accumulated
     depreciation is $60,860 and $21,163 for 2011 and 2010, respectively. Contingent rentals for
     excess usage of the printing equipment amounted to $13,531 and $11,049 in 2011 and 2010,
     respectively.




                                                 10
     The future minimum lease payments required under the capital leases and the present value of
     the net minimum lease payments as of December 31, 2011, are as follows:
     Years Ending
     December 31,                                                                     Amount
     2012                                                                            $ 59,089
     2013                                                                              59,089
     2014                                                                              59,089
     2015                                                                              31,736

           Total minimum lease payments                                               209,003

     Less amount representing maintenance                                             (57,761)

           Net minimum lease payments                                                 151,242

     Less amount representing interest                                                  (9,041)

           Net minimum lease payments                                                 142,201

     Less current maturities of capital lease payments                                (39,376)

     Long-term capital lease obligations                                             $ 102,825


8.   SUBSEQUENT EVENTS

     There were no subsequent events that require adjustments to or disclosures in the financial
     statements as of December 31, 2011. Subsequent events were evaluated through March 5, 2012,
     which is the date the financial statements were available to be issued.

                                                ******




                                                     11
                                                                                 Deloitte & Touche LLP
                                                                                 Suite 800
                                                                                 1750 Tysons Boulevard
                                                                                 McLean, VA 22102-4219
                                                                                 USA
                                                                                 Tel: +1 703 251 1000
                                                                                 Fax: +1 703 251 3400
                                                                                 www.deloitte.com




INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL
REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED ON AN
AUDIT OF FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE WITH
GOVERNMENT AUDITING STANDARDS

To the Federal Financial Institutions Examination Council:
Washington, D.C.

We have audited the financial statements of the Federal Financial Institutions Examination
Council (the “Council”) as of and for the years ended December 31, 2011 and 2010, and have
issued our report thereon dated March 5, 2012. We conducted our audit in accordance with
auditing standards generally accepted in the United States of America and the standards
applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States.

Internal Control over Financial Reporting

Management of the Council is responsible for establishing and maintaining effective internal
control over financial reporting. In planning and performing our audit, we considered the
Council’s internal control over financial reporting as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the financial statements, but not for the
purpose of expressing an opinion on the effectiveness of the Council’s internal control over
financial reporting. Accordingly, we do not express an opinion on the effectiveness of the
Council’s internal control over financial reporting.

A deficiency in internal control over financial reporting exists when the design or operation of a
control does not allow management or employees, in the normal course of performing their
assigned functions, to prevent or detect misstatements on a timely basis. A significant deficiency
is a deficiency, or combination of deficiencies, in internal control over financial reporting that is
less severe than a material weakness, yet important enough to merit attention by those
responsible for oversight of the Council’s financial reporting. A material weakness is a
deficiency, or combination of deficiencies, in internal control over financial reporting, such that
there is a reasonable possibility that a material misstatement of the Council’s financial statements
will not be prevented or detected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and was not designed to identify all deficiencies in
internal control over financial reporting that might be deficiencies, significant deficiencies or
material weaknesses. We did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above.




                                                                                    Member of
                                                                                    Deloitte Touche Tohmatsu
Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Council’s financial statements are
free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of financial statement amounts. However,
providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion. The results of our tests disclosed no instances of
noncompliance or other matters that are required to be reported under Government Auditing
Standards.

Distribution

This report is intended solely for the information and use of the Council, management, others
within the organization, the Office of Inspector General, and the United States Congress, and is
not intended to be and should not be used by anyone other than these specified parties.




March 5, 2012




                                                                                  Member of
                                                                                  Deloitte Touche Tohmatsu
